<html>
<title> - GSA: A REVIEW OF AGENCY MISMANAGEMENT AND WASTEFUL SPENDING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 GSA: A REVIEW OF AGENCY MISMANAGEMENT 
                     AND WASTEFUL SPENDING--PART 2 

=======================================================================

                                (112-96)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

75-419 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Brian D. Miller, Inspector General, General Services 
  Administration.................................................    11
Cynthia Metzler, Chief Administrative Services Officer, General 
  Services Administration........................................    11

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Eddie Bernice Johnson, of Texas.............................    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Brian D. Miller.............................................    33
Cynthia Metzler..................................................    37

                       SUBMISSION FOR THE RECORD

General Services Administration, responses to questions for the 
  record.........................................................    40

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        GSA: A REVIEW OF AGENCY
                           MISMANAGEMENT AND
                       WASTEFUL SPENDING--PART 2

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:13 a.m., in Room 
2167, Rayburn House Office Building, Hon. John L. Mica 
(Chairman of the committee) presiding.
    Mr. Mica. Good morning. I would like to call the House 
Transportation and Infrastructure Committee to order. This 
morning's hearing is entitled, ``General Services 
Administration: A Review of Agency Mismanagement and Wasteful 
Spending--Part 2.''
    I am pleased to have Members join us and I apologize for a 
slight delay in the start. I told Ms. Norton someone should do 
something about traffic in Washington.
    We are pleased to have you here today and also to be 
holding this important oversight hearing and investigative 
hearing regarding the latest round of GSA spending abuses, 
which has seriously called into question GSA's ability to 
safeguard taxpayers' money.
    And the order of business will be I will start with my 
opening statement, and then I will recognize other Members. 
Then we will get to our panel of two witnesses. We will proceed 
with questions after we hear from those witnesses.
    Again, we are focusing on some of the problems that we have 
had in waste and abuse of taxpayer funds. The General Services 
Administration--it is particularly alarming because the General 
Services Administration is a chief procurement agency for the 
Federal Government, also responsible for maintaining many of 
the public assets--trustees of public assets--and when you have 
abuse as an agency with that mission, you have some serious 
problems. And we will address them today.
    First of all, I think everyone was appalled--and we 
appreciate the work of the inspector general, who is with us 
today--but they were appalled when we saw an $800 million Las 
Vegas conference that, unfortunately, featured clowns and mind 
readers and the infamous image that all of us recall of one of 
the administers in a hot tub thumbing his nose at both Congress 
and the American taxpayer. We are hopeful that this was a 
limited occurrence and that that was not indicative of the 
behavior, the actions, or the management of the agency.
    From the very beginning, I asked Mr. Denham to chair the 
Economic Development, Public Buildings, and Emergency 
Management Subcommittee that oversees GSA. But from our very 
first hearings, we requested information on soaring 
administrative costs that had ballooned some 300 percent. So we 
knew something was wrong. And I think Mr. Denham and I at 
almost every hearing and in communications with the agency have 
tried to ascertain why these expenses were so high and what was 
going on.
    Our focus also from this committee isn't just something 
related to what we found with these conferences. One of our 
intents, both in the minority, when we published the report 
entitled, ``Sitting on Our Assets: The Federal Government's 
Misuse of Taxpayer-Owned Assets,'' and that was in October of 
2010, the same month that this first conference that was so 
abusive was held, but that highlighted the multibillion-dollar 
loss of taxpayer revenues and potential utilization of assets. 
We found that GSA and the Federal Government have 14,000 
properties or buildings across the Nation that are either 
vacant or underutilized.
    Mr. Denham and I went down--and other Members--Ms. Norton 
was there--at the Old Post Office in the annex. The annex had 
been vacant for 15 years. And it is 2 blocks from the White 
House. I just came from the White House a few minutes ago, and 
just within steps of the White House is this property, costing 
taxpayers a loss of $8 million a year. It was 32 degrees 
outside, and we held a hearing in the annex, which had been 
vacant. It was 38 degrees inside.
    Most of the people who testified before us or worked with 
us, then-GSA administrators, unfortunately, were also involved 
in some of the abuses and almost all of them have been removed 
or replaced or resigned.
    In the meantime, with Ms. Norton's help and in a bipartisan 
fashion, we have turned that first property from a money-losing 
asset to where a thousand people will be employed and potential 
significant revenue for the taxpayers. But that took us over a 
year.
    Since that, we have done two subsequent hearings in vacant 
buildings in our Nation's Capital, one in the annex, Cotton 
Annex, a huge swath of land. That building was vacant for 5 
years. And then several weeks ago, we conducted another hearing 
in the empty power facility behind the Ritz Carlton Georgetown 
on 2.08 acres vacant for 11 years.
    Just examples of some of the huge waste. These conferences 
are significant abuses in waste, but there are even more 
dramatic problems with GSA. Next week, we will be doing a 
hearing in Miami, and there is Federal courthouse that has been 
vacant there for a number of years. We will continue during the 
August recess. I think we are going to be in Los Angeles with 
Mr. Denham to look at the situation there with underutilized or 
excess property sitting idle.
    So that sort of sets the stage for today's hearing. We have 
been working diligently with the inspector general. We have a 
very limited investigative staff on the committee. The 
inspector general is doing as good a job as he can. 
Unfortunately, ladies and gentlemen, I am told by some folks 
that we have now received information that there may be as many 
as 77 conferences and award ceremonies that are now under 
review by the inspector general and the investigative committee 
of our staff. That is quite disturbing. We, of course, were 
told, in addition to the October conference, which was 
$800,000, that now there is a 1-day, in excess of a quarter of 
a million dollar Virginia conference, and people have already 
seen the videos of $20,000 worth of drumsticks that were 
purchased; $35,000 in picture frames; and $104,000 for 
consulting on a 1-day conference that was paid. All of that is 
disturbing. Now we are finding there may be as many as 77.
    Mr. Denham I think I will address one particular that we 
have heard of in the last--actually, this continues even in the 
last 24 hours. Not all of them are in the dollar amounts, but I 
must report that we are now examining the cost per attendee, 
and some of that is over the top. And it does raise new 
concerns. But it is going to take a while to sort through the 
good, bad, and the ugly of what has taken place. Not a pretty 
picture for taxpayers.
    Then I have to raise next before the committee a question 
of the bonuses. We were informed by GSA after inquiries about 
bonuses, the administration, the President had asked not to 
issue bonuses or they be limited. And in our questioning, we 
discovered about $10 million in what was reported from GSA in 
bonuses. Now it appears--and I have to thank the media, 
particularly Fox News and I guess CBS and others who have also 
pursued this matter for some time. It is funny. A congressional 
panel, when you do an inquiry and you can ask an agency a 
question and you get back an answer and they give us back $10 
million as the answer as to these bonuses. The media 
discovered--what is it--$34 million on top. So we have $44 
million in bonuses. Absolutely stunning amount.
    Now to put this in context--and again, I thank the media 
for also working this. I see also the Washington Times had a 
FOIA request. All of these combined, we have now uncovered 
about $44 million in bonuses.
    Do we have a spreadsheet on that?
    This is an absolutely incredible amount of money. To put it 
in context, the entire Federal Government paid $439 million in 
bonuses to 1.3 million Federal employees last year. Now, GSA 
has 1 percent of the employees of the Federal Government. One 
percent. And they received 10 percent of the bonuses, to show 
you how dramatically out of kilter this is. That is absolutely 
outrageous.
    Then, furthermore, we went through some of the expenditures 
on bonuses and payments to some of the GSA employees and who 
got them. A $50,000 bonus went to the regional commissioner, 
who is under investigation for the Las Vegas conference. So not 
only were they giving out an incredible and inordinate amount 
of bonuses, but those who got them, for example, were some of 
the abusers. So the regional commissioner under investigation 
who got the $50,000 bonus ended up with almost a quarter of a 
million dollars in his pocket, $240,000.
    An employee with a base salary of $84,000--now listen to 
this--got $115,000 in overtime pay. We saw a quarter of a 
million dollar distributions to a number of employees that were 
also investigated. A $79,000 bonus for one employee with a 
total compensation that went as high as $260,000. There is 
something wrong in GSA when you have to pay an employee 
$115,000 in overtime. And then we found multiple $50,000 
bonuses in this agency.
    Conferences are one thing. Multimillion-dollar losses--
bonuses, absolutely outrageous. Despite a specific guidance by 
the administration in 2011, and let me read it, that bonuses--
or this extra compensation would be awarded in a manner that is 
cost-effective for agencies and successfully motivates strong 
employee performance.
    So this is a little bit long but, again, I want to 
highlight some of what we found to date. Unfortunately, this is 
only the preliminary results of our investigation. We are 
getting this in dribbles and drabs.
    I thank, again, the media who was involved in asking for 
these FOIA requests. This wasn't a coordinated effort, I might 
say. These were independent. But all this has sort of come 
together and uncovered an incredible array of waste, abuse, 
possible fraudulent activity.
    We have to also be a little bit careful today. I respect 
the work of the inspector general, and he will besomewhat 
limited in some commentary. His responsibility and our 
responsibility will be after this investigation to possibly 
make criminal referrals or referrals to the Department of 
Justice for their review. So we want to make certain that our 
investigations comply with, again, proper protocol, and we 
respect him. And at any point, with any question, we respect 
your position in an ongoing investigation.
    We will continue to work hand-in-hand with the inspector 
general and our investigative staff to, one, uncover the 
balance of this waste, fraud, and abuse; two, to find out who 
was responsible, hold them accountable; and then, three, we are 
determined to make certain that this is cleaned up. It does not 
happen again. If we need to change administrative procedures or 
the law, we will do that. And you have my commitment that we 
will continue to pursue this until this mess is cleaned up.
    Finally, let me just say this. I do not have witnesses in 
any of those other chairs today because what we wanted to do 
was hear from the inspector general, from GSA. I had asked 
other GSA officials to come here. Most of the first tier has 
either been removed, resigned, or left. Now the second tier is 
not as cooperative as I had hoped. We had one I guess take a 
medical leave last week who possibly was involved. And others 
are not coming forward today.
    Additionally, in addition to not having GSA here today, I 
do not have witnesses which I would like to have from the 
private sector because there are people who are professionals 
who have management skills and can handle in an expeditious 
fashion the management, sale, the better utilization of these 
incredible assets. We have thousands of Federal properties, 
buildings vacant or underutilized, and I believe we need to 
start looking at turning this over to the private sector to 
better manage and to get GSA out of some of its current 
business.
    But what has happened here today because these seats are 
vacant is all of those potential participants are so 
intimidated by GSA that they have stayed away and are not with 
us. Each one we have requested has backed out of participating 
in this hearing. And that is unfortunate.
    And I am told, again, because GSA has such power; they 
control the largest rental market, property market in the 
world, that this is taking place. But I intend to find another 
way and other witnesses to come in and guide our committee in 
trying to reform this whole process.
    I know this is a very long opening statement, and I 
appreciate your indulgence, Ranking Member Norton and ranking--
Chair Mr. Denham.
    With those comments, I would like to yield to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman, and thank you for 
today's hearing.
    This committee is addressing yet another General Services 
Administration conference that has gone, shall we say, off the 
rails. Much like the October 2010 Western Regions Conference, a 
conference that ran amok near Las Vegas, Nevada, we now have 
another conference closer to home that occurred just a month 
later. This time in Crystal City, Virginia, where there are 
serious allegations of excessive spending and activities of 
dubious merit.
    The President's appointment of GSA Acting Administrator Dan 
Tangherlini, the official who referred this matter to the GSA 
inspector general, is already bearing fruit. Administrator 
Tangherlini told the subcommittee he would conduct a top-to-
bottom review of the agency when he appeared before us. We will 
need a careful inspector general report like the one received 
concerning the Western Regions Conference. But Administrator 
Tangherlini's actions thus far indicate that he is trying to 
get to the root of the issues at GSA. The acting administrator 
quickly implemented some commonsense reforms in the wake of the 
prior embarrassing GSA scandal, particularly consolidating 
conference oversight in the new Office of Administrative 
Services, which is now responsible for oversight of contracting 
for conferences, related activities and amenities and for 
review and approval of proposed conferences for their relation 
to GSA's mission.
    I am also particularly pleased that GSA has brought all 
Public Buildings Service regional budgets under the direct 
authority of GSA's chief financial officer, centralizing 
authority over these accounts to ensure there are checks and 
balances in how GSA prioritizes spending. This structural 
change alone might have had the effect of putting a stop to the 
overspending on the GSA conferences in Las Vegas and Crystal 
City.
    I look forward to hearing the testimony this morning about 
how we can continue to make improvements at GSA going forward.
    I thank you, Mr. Chairman. I yield back.
    Mr. Mica. I thank the gentlelady.
    I am pleased to recognize the chair of our subcommittee 
overseeing this matter, Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Certainly it is frustrating to have yet one more hearing on 
some of the fraud and the waste that is happening in GSA, the 
agency that is supposed to be tasked with setting an example, 
setting the standard for every other agency.
    After the Las Vegas celebration that they had, you would 
have thought that things would have changed. But yet we see 
conference after conference--and not just conferences. We found 
out now that rather than categorizing them as conferences, they 
categorize them as celebrations so they can get around the 
Executive order of calling it a conference.
    We see the outrageous bonuses that aren't just performance 
bonuses, which are bad enough, which under an Executive order 
were supposed to be stopped. But now we find out there is not 
only performance bonuses, but there are tier bonuses. There are 
special act bonuses. There are huge overtime payments, 
employees, department heads, receiving hundreds of thousands of 
dollars in additional pay.
    This was supposed to be a hearing focused on yet one more 
conference dealing with the celebration at the Key Bridge 
Awards Ceremony, where awards were once again passed out--$3.7 
million just in one awards ceremony alone. Yet after the 
President issued his Executive order, we found out there were 
77 more conferences around the Nation.
    I think the question the taxpayer wants answered is: Why? 
Why are these agencies ignoring the President of the United 
States?
    And now what is most outrageous is the Administration feels 
that they can bypass Congress, breaking three different laws 
written in statute. I think there are many members of this 
committee and of Congress as a whole that are going to have a 
lot of questions about that. If you can get around the 
prospectus hear in this committee in this body of Government 
that does control the purse strings for the World Trade Center, 
then you can do it is in Ms. Norton's district. You can do it 
in Ms. Edwards' district. There is a $2 billion lease on the 
FBI building coming up. Billions of dollars of taxpayer 
dollars. If you can't manage conferences and bonuses, how do 
you expect that Congress is going to allow you to handle 
billions of dollars worth of leases?
    Mr. Mica. Mr. Denham, would you yield for just a second? I 
just want to explain to the Members the issue that he is 
raising right now because we have leadership of the committee 
here--this is a very important issue--and Ms. Norton.
    Our committee is responsible basically, under law and 
historically for years, any lease that GSA signs over $2.7 
million needs to come back for our approval, and then they are 
brought before this committee and we approve them. We had 
pending a $350 million lease of the World Trade Center. And the 
Administration--well, the Administration, GSA, signed that 
lease without approval.
    How long was the term?
    Twenty years, signed a 20-year--I mean, on top of 
everything else you have heard today, with the conferences, the 
bonuses, the waste and abuse, now they have just stuck their 
finger in the eye of the committee.
    I want to make sure everybody hears what Mr. Denham is 
saying: $350 million lease, subverting this committee. We have 
a major crisis. We have talked to the appropriators also. But 
they went ahead and signed that without approval of this 
committee.
    Thank you, and I yield back.
    Mr. Denham. Thank you, Mr. Chair.
    If you can sense my frustration and outrage, it is not 
partisan. This is about an agency that is ignoring the 
Commander in Chief. Whether it is Republican or Democrat, this 
body has a responsibility to make sure that the law is being 
upheld.
    I want to just conclude: ``At a time when so many American 
families are struggling to make ends meet, I am committed to 
making sure the Federal Government is spending the taxpayers' 
money wisely and carefully and cutting costs wherever possible. 
I am committed to ending programs that do not work, 
streamlining those that do, and bringing a new responsibility 
for stewardship of tax dollars. Like households and businesses 
across the country, the Federal Government is tightening its 
belt. The effort began during my first days in office when I 
froze the salaries of the senior members of my White House 
staff. As a next step in this effort, I direct you to suspend 
cash awards, quality step increases, bonuses, similar 
discretionary payments or salary adjustments to any politically 
appointed Federal employee, commencing immediately and 
continuing through the end of the fiscal year 2011. I also 
direct the Office of Personnel Management to issue guidance in 
consultation with the Office of Management and Budget to assist 
departments and agencies in implementing this policy.''
    That is a Presidential memorandum, August 3, 2010. Yet 77 
more conferences went on after that.
    Executive Order 13576--Delivering an Efficient, Effective 
and Accountable Government: Government operations will be 
``curbing uncontrolled growth in contract spending, terminating 
poorly performing information technology projects, deploying 
state-of-the-art fraud detection tools to crack down on waste, 
focusing agency leaders on achieving ambitious improvements in 
high priority areas, and opening Government up...'' 
Transparency. That was June 13, 2011, Executive Order 13576.
    September 21, 2011, the Vice President was then tasked with 
getting every agency head together to deliver an efficient, 
effective, and accountable Government, which launched the 
campaign to cut waste. The Vice President convened the heads of 
executive departments and agencies to discuss the campaign to 
cut waste. At the meeting, the Vice President asked department 
agency heads to undertake thorough review of wasteful and 
inefficient spending and report back on the measures: 
``Therefore, the President has directed me to instruct all 
agencies and departments to conduct a thorough review of the 
policies and controls associated with conference-related 
activities and expenses. Until such time as the deputy 
secretary or equivalent can certify that the appropriate 
policies and controls are in place to mitigate the risk of 
inappropriate spending practices with regard to conferences, 
approval of conference-related activities and expenses shall be 
cleared through the deputy secretary or equivalent.''
    Executive Order 13589 on November 9, 2011. I will save you 
the suspense and go to section 7 of that: ``Extraneous 
Promotional Items.'' ``Agencies should limit the purchase of 
promotional items, e.g., plaques, clothing, commemorative 
items, in particular where they are not cost-effective.''
    Conference after conference, celebration after celebration, 
several layer of bonuses and overtime, and now GSA wants to 
have authority over leases in the hundreds of millions of 
dollars. It stops here in this committee. I yield back.
    Mr. Mica. Thank you, Mr. Denham. Do others seek 
recognition?
    Mr. Shuster. Mr. Speaker.
    Mr. Mica. I love that title, but I will just settle for 
chairman. As nice as you were, Mr. Shuster, I am going to 
recognize Mr. Duncan first.
    Mr. Duncan. Well, thank you, Mr. Chairman. I appreciate 
your calling this hearing.
    All the publicity that has been given to these conferences 
and these terrible abuses of the taxpayers have shown once 
again that the easiest thing in the world is to spend other 
people's money, and that it is far too easy. In fact, Governor 
Ed Rendell, when he was Mayor of Philadelphia and was having a 
problem with some of the city unions, testified in front of one 
of our congressional committees many years ago, and he said, 
the problem with Government is there is no incentive for people 
to work hard, so many do not. There is no incentive for people 
to save money, so much of it is squandered.
    And certainly those words were true many years ago, and 
they are true today, maybe even more so as all of the abuses of 
the taxpayers that we are talking about here today show. So I 
appreciate you having this hearing and looking into these 
matters, and I yield back.
    Mr. Mica. Thank you. Mr. Coble, I tried to do it in 
seniority, but I didn't see you first. I apologize, sir.
    Mr. Coble. Mr. Chairman, thank you for calling this 
hearing. I have two other hearings, Mr. Chairman, so I will be 
in and out for most of the morning. I appreciate the witnesses 
being here. It does appear that sound fiscal management has 
been cast aside and replaced by wasteful mismanagement and 
recklessness. And perhaps we will hear more about that today. 
Again, I thank you for having called the hearing, Mr. Chairman, 
and yield back.
    Mr. Mica. Thank you, Mr. Coble.
    Mr. Shuster.
    Mr. Shuster. Mr. Chairman, thank you very much. I am not 
going to be able to stay for the testimony, but I have a 
question--actually a couple of questions I would like to submit 
for the record. But it has been brought to my attention by some 
of my colleagues that there is a situation in San Antonio, 
Texas, involving the GSA that has recently made headlines. From 
what I have been told, the local Social Security office was 
asked to move to a new office, and while a new location will 
provide additional space, I understand also double the cost of 
the lease. From the information I have received, the cost of 
the lease will be more than $1 million per year in addition. I 
understand that the Social Security Administration has spent 
$1.7 million in reservations, a commission for the new lease 
totaling $482,000, and additional security costs will total 
$78,000. This does not take into account the cost of the actual 
move.
    I recognize this is just one lease in one part of the 
country, but I am interested in understanding why this 
situation has occurred, in light of all the other things that 
has been happening to GSA.
    But I have a series of questions I would like to submit to 
you, Mr. Miller, and get back in writing to me, if you would, 
some of the answers to my questions.
    With that, I yield back.
    Mr. Mica. Do others seek recognition?
    Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman.
    First of all, I want to thank you for providing the therapy 
for the Members here to get this off our chest.
    You know, before I came to Congress I was a mayor of a 
small town in Pennsylvania, and the city was broke. We actually 
didn't have money to hire the police that we needed. Now I come 
to Congress and the country is broke. I am beginning to believe 
that it is me.
    I have to ask the simple question. When we deal with so 
many issues like we don't have money to fix our roads and 
bridges, but yet we are giving out hundreds of millions of 
dollars in bonuses, it is hard for me to conceive who the 
real--where the real problem lies. And I have come to this 
conclusion that yes, there is horrible abuses of GSA. But you 
are not the only agency. This is not the only agency I have 
seen waste and abuse. We can go agency by agency and find it 
over and over again. And I have come to the conclusion that we 
are the problem. We in Congress have failed.
    Yes, it is great to get this off our chest and point out to 
the American people how you have wasted their tax dollars, but 
who are the enablers? It is Congress that is the enablers. We 
have allowed these agencies to do this.
    If anybody understands zero-based budgeting, you would 
understand that if we implemented a fundamental practice that 
most businesses use rather than allowing agencies to simply 
budget by what they spent last year and this is what we are 
requesting this year, zero-based budgeting would eliminate all 
this. We wouldn't be having this hearing today. Because you 
see, every agency would start out with the same amount, zero. 
Zero. And you would have to justify every line item, why you 
need what you need. And they would never be able to budget 
millions of dollars for bonuses. This would never happen.
    This Congress can't even pass a budget. The Senate hasn't 
voted for a budget in 3 years. This is like parents who are 
going away on vacation, and they load their house up, and they 
are going to leave their teenage children at home. But before 
they leave, they load their house up with booze, and they leave 
the credit card on the table. And they go away, and when they 
come home, they act surprised that there are beer bottles all 
over the house and the house is a wreck, and they ask, what the 
heck happened?
    We have allowed this to happen. We have allowed this to 
happen. So I am going to ask the American people who are 
watching these hearings to take this matter into their hands. 
Before this next election, ask everyone who is running for this 
office if they support zero-based budgeting and ask everyone 
who is running for the United States Senate if they promise the 
American people that they will pass a budget. And if the answer 
to those questions are, no, then I would suggest that they hire 
new babysitters.
    Thank you, Mr. Chairman.
    Mr. Mica. Do others seek recognition?
    Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
want to ask unanimous consent to place my entire statement in 
the record.
    Mr. Mica. Without objection, so ordered.
    Ms. Johnson of Texas. What I would like to say very quickly 
is we are in dire straits for dollars and we have some 
excellent Federal employees. And I know that in this very 
partisan environment, it seems like you are all bad, but that 
is not the case. But it appears to me that there was no 
attention given to clearing the problems when they were called 
to your attention. And I think that for that reason it is very 
difficult to try to justify the ill decisions that were made. 
This makes it very hard for law enforcement officials, air 
traffic controllers, educators that are all Federal employees 
that work very hard and make a lot less money and get tainted 
with this kind of behavior with this agency. I think it is 
unfortunate.
    Thank you, Mr. Chairman. I yield back and put my entire 
statement in the record.
    Mr. Mica. I thank the gentlelady. Ms. Napolitano, you are 
recognized.
    Ms. Napolitano. Thank you, Mr. Chair.
    In listening to my colleagues, I can't agree with them 
more. I, too, come as a past mayor of a small city. And the 
budget is something that we look over very carefully. But that 
is at a smaller level.
    I know you have tremendous responsibilities, and the 
oversight is probably a little harder. However, every single 
agency is expected to do their best and act prudently. And I am 
hoping that the American people that are listening will 
understand that they have a right to be antiGovernment when 
they hear these stories and they are borne out by facts that 
are brought out to the general public's view. I think it is 
important for us to support that and continue to go after any 
agency that is mismanaging, that is not following the intent of 
the law, and that the people, the supervisors, their 
leadership, is understanding that they have a right to be able 
to carry out the intent of the charge that they are given and 
understand that we will be able to follow through.
    I hope there will be lots of inquiries and discipline to 
those that have thought that they could just move ahead without 
any punitive action or any repercussions. We are all facing the 
same budgets in our cities. They are going bankrupt. Even in 
our staff, we don't give bonuses. We can't. We don't have the 
funds. And to have the American public see these outrageous 
expenses--the taxpayer dollar. It is their money.
    So I am totally looking forward to listening and hopefully 
finding some solutions that are going to be effective in 
dealing with the future of our employees, that is the American 
public's employees.
    Thank you, Mr. Chair. I yield back.
    Mr. Mica. Do other Members seek recognition?
    If no other Members seek recognition, we do have our panel 
that we will turn to. Today we have two witnesses. The first is 
the Honorable Brian Miller, who is the inspector general of the 
General Services Administration; and then we have Ms. Cynthia 
Metzler. She is chief administrative services officer of the 
General Services Administration. We will, of course, welcome 
your testimony. We will start with 5 minutes or so. There are 
only two of you, so we won't hold you to that. If you have 
additional information, documentation that you would like to be 
made part of the record, we will be glad to do that, or 
testimony.
    I particularly want to thank Mr. Miller for his willingness 
to work with us. This, as I said in my opening statement, is a 
delicate situation. We have what started out as a small scandal 
now turning into a massive scandal with a number of people who 
have been involved. In fact, it is getting hard to find someone 
who isn't involved who we can even get to testify without 
having them put into some jeopardy because of the judicial 
process that probably will unfold here.
    With that, again, I just thank Mr. Miller for his working 
so diligently with our investigative staff to uncover what is 
going on and also bring it to light.
    So, Mr. Miller, you are recognized. Welcome.

TESTIMONY OF THE HONORABLE BRIAN D. MILLER, INSPECTOR GENERAL, 
  GENERAL SERVICES ADMINISTRATION; AND CYNTHIA METZLER, CHIEF 
       ADMINISTRATIVE SERVICES OFFICER, GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Miller. Thank you, Mr. Chairman.
    Chairman Mica, Chairman Denham, Ranking Member Norton, 
members of the committee, thank you for inviting me here to 
testify this morning. I appreciate this committee's support of 
inspectors general and of my office's mission to weed out 
instances of fraud, waste, and abuse at the General Services 
Administration.
    It was with that mission in mind and pursuant to our 
congressional reporting requirements that I wrote my July 19 
letter to our committees of jurisdiction, some of which had 
requested that IGs bring matters to their attention earlier in 
an investigation. In my letter, I informed Congress about an 
incident that had been brought to my attention by Acting 
Administrator Dan Tangherlini, who advised me that GSA planned 
to release similar information in response to a Freedom of 
Information Act request.
    On November 17, 2010, the Federal Acquisition Service, FAS, 
held a 1-day performance award ceremony in the Washington, DC, 
metropolitan area. The ceremony featured a team-building drum 
band exercise conducted by a third-party vendor and speeches by 
current and former GSA officials. Our findings, though subject 
to further investigation and change, show costs of over 
$200,000 for the 1-day ceremony, including over $34,000 for the 
venue, $28,000 for picture frames, and $140,000 for 
coordination and logistical management to a third-party vendor. 
The vendor costs included over $20,000 for drumsticks and 
$10,000 for management of a presentation called, ``Mission 
Possible, Agent X.''
    As I stated in my letter, we have begun a preliminary 
analysis of the information we received from GSA and have 
opened an administrative investigation. Since our investigation 
has begun just a few weeks ago, we have already uncovered some 
changes in cost figures and new facts.
    This may be a good opportunity to explain how an OIG 
investigation is conducted. OIG investigations originate 
through any number of sources. Our hotline affords GSA 
employees, GSA senior management, other Government employees, 
contractors and concerned citizens a mechanism to report 
instances of fraud, waste and abuse throughout GSA. My Office 
of Investigation receives between 2,000 and 3,000 hotline tips 
annually and will assess each complaint or tip for credibility 
and open up an investigation if appropriate.
    Additionally, some matters warranting an investigation are 
brought to our attention by GSA senior management, as was the 
case with the FAS ceremony. In other scenarios, our auditors 
may bring a matter discovered during an audit to our Office of 
Investigations or special agents may be tipped off by an 
informant. No matter what the source, our special agents 
conduct their investigations with professionalism, objectivity, 
and diligence. They interview witnesses and collect available 
evidence and documents. Our agents compile the evidence in a 
written report of investigation, commonly known as an ROI, 
Report of Investigation, with relevant evidence attached.
    In the last semiannual reporting period, our Office of 
Investigations made 486 referrals for criminal prosecution, 
civil litigation, and administrative action. Civil settlements 
and court-ordered and investigative recoveries for the same 6-
month period totaled $218, 496,507. Because of the impact an IG 
investigation can have, accuracy is of the utmost importance. 
Inaccurate reports can threaten the integrity of an OIG 
investigation and damage the OIG's reputation as a mechanism 
for dependable oversight.
    Because our investigation into the FAS ceremony is ongoing, 
the preliminary figures in the confines of my letter to 
congressional committees are the extent to which I can discuss 
this incident. Those numbers were based on information provided 
by the agency; information that I understood was going to be 
released publicly. My office will continue to look into this 
ceremony and will update the committee when our investigation 
concludes.
    Thank you for the opportunity to provide testimony. I would 
be happy to answer any questions. Thank you.
    Mr. Mica. Thank you, Mr. Miller.
    Mr. Mica. We will now turn to Cynthia Metzler, chief 
administrative officer of the GSA. You are recognized.
    Ms. Metzler. Good morning, Chairman Mica and Ranking Member 
Norton.
    My name is Cynthia Metzler. I am the chief administrative 
services officer of the General Services Administration. In 
that capacity, I coordinate internal management and support 
services to promote efficiency within the agency, covering a 
wide variety of issues, including travel and conferences.
    As you are aware, Acting Administrator Dan Tangherlini was 
not able to appear today due to a longstanding family 
commitment. Mr. Tangherlini reached out to the committee to 
request that this hearing be rescheduled at a mutually 
convenient date so that he could personally appear but was 
informed that the committee was electing to proceed with 
today's hearing with the awareness that he was unavailable.
    Mr. Tangherlini looks forward to continuing to work with 
the committee to improve the efficiency of GSA and to refocus 
the agency on its core mission of streamlining the 
administrative work of the Government to save money for the 
American taxpayer.
    Given that the genesis of this hearing was the acting 
administrator's recent referral to the inspector general of a 
2010 award ceremony for the Federal Acquisition Service, I have 
come here today to outline the steps that we have taken to 
reform our conference and travel policies to prevent waste from 
happening again. As of April 2012, all travel for events, 
including internal GSA meetings, training, conferences, 
seminars, and leadership or management events, among others, 
was suspended. We have consolidated oversight of travel and 
conference expenses into the Office of Administrative Services, 
which I lead. My office now reviews each and every planned 
future conference to make sure that these events and any 
related travel are justified.
    For example, a conference requires a business 
justification, the submission of a budget, and must be approved 
by the head of the office pursuing the conference, and myself. 
Conferences with anticipated costs over $100,000 require the 
approval of the deputy administrator. Any travel must be 
essential to the mission of the agency, such as conducting 
litigation or performing building inspections. Any travel for a 
routine internal meeting at GSA requires a waiver from the 
administrator or the deputy administrator.
    We have canceled 37 previously scheduled conferences. These 
are a few of the many reforms the acting administrator has 
taken to improve oversight, strengthen controls, and help 
refocus the agency on its core mission. His top-to-bottom 
review of all agency operations continues. And I know he looks 
forward to discussing these with you in the future.
    The 2010 FAS awards ceremony is another example of what the 
acting administrator has already recognized, a pattern of 
misjudgment which spans several years and administrations. It 
must stop. And that is why Acting Administrator Tangherlini has 
instituted several stringent new policies on spending to put an 
end to waste. The new leadership at GSA is committed to 
investing any misuse of taxpayer dollars. When we find 
questionable occurrences, we refer them to the Office of the 
inspector general, as we did in this case.
    GSA has already taken a number of important steps to reform 
conference and travel policy within the agency. As part of the 
acting administrator's top-to-bottom review, more steps will be 
taken to improve efficiency and save the taxpayer dollars.
    I appreciate the opportunity to come before you today to 
discuss this aspect of reform at GSA, and I welcome any 
questions you may have.
    Mr. Mica. Thank you.
    I appreciate your coming.
    We had requested, of course, Mr. Tangherlini. He, as you 
said, had a family obligation. We requested the deputy 
administrator, and I guess she was involved in this conference 
that is under question and investigation. So she is not coming. 
We had invited the chief of staff. He is not coming. And then 
we invited--what is his last name--Kempf, Federal Acquisition 
Service. I guess he was pretty heavily involved in the Virginia 
conference, and I believe he took a leave of absence.
    Did he take a leave of absence last week, Ms. Metzler?
    Ms. Metzler. I believe he is on medical leave.
    Mr. Mica. OK. And then we got further down, the public 
buildings administrator, she couldn't come. So we got down to 
you. We appreciate your being here. It is getting difficult to 
find anyone who hasn't been involved in these scandals to now 
come and testify.
    I know, Mr. Miller, you have got ongoing investigations. We 
have identified 77 conferences with at least 25 attendees and 
$10,000 cost. Is that correct? Are you aware of this?
    Mr. Miller. That is correct, Mr. Chairman.
    Mr. Mica. Well, many of them are smaller amounts, but we 
have got some smaller amounts with very significant 
expenditures. I see some as high as almost $2,200 a person; 
some that raise some questions.
    I wish you would give particular attention to the National 
Congressional Support Conference in Henderson, Nevada. Were we 
able to find out if that was the same hotel Mr. Neely was in? 
But they had 44 congressional--ma'am, is that your legislative 
office, 44 persons?
    Ms. Metzler. It is the Office of Congressional Affairs.
    Mr. Mica. Yes. I am not sure if they were at the same 
resort with the same hot tub that Mr. Neely was in, but they 
were there for 5 days for an intergovernmental relations 
conference. And that is September of 2011. I would like 
particular attention if you could get back with the committee. 
I think our initial inquiries were thwarted on that. But I have 
particular interest in that.
    Again, the committee and you have some work to do, Mr. 
Miller. I appreciate your work. I won't get into specifics 
because I don't want to tie it to individuals in yourongoing 
investigation.
    Is the agency cooperating with you now, Mr. Miller?
    Mr. Miller. Yes, it is, Mr. Chairman. It is cooperating. We 
are getting a lot of information from the agency, and we work 
with them. We, obviously, get information in waves sometimes. 
We don't get complete information all the time. And so we go 
back, and we get additional information. So I think the 
committee understands the process.
    Mr. Mica. OK. Further, I don't think we have a referral yet 
on the bonuses. Were you doing anything on the bonuses?
    Mr. Miller. We have an audit of the executive 
compensation----
    Mr. Mica. On the way.
    Mr. Miller. Well, on its way.
    Mr. Mica. We will turn over to you what we have been 
provided with. I think there are two or three FOIA requests 
that were instituted by the media. It is amazing. I am not an 
attorney, Mr. Miller, but the way you ask the question and the 
response you get from the agency is when they tell us and we 
ask a question, how much in bonuses, I guess you can skew or 
respond in a different fashion. We were told $10 million. Now 
the media, it appears this could be up to $44 million; another 
$34 million.
    Ms. Metzler, do you know anything about the total number of 
bonuses, dollars that were expended?
    Ms. Metzler. Chairman Mica, unfortunately, I do not. I am 
not in charge of the human capital part.
    Mr. Mica. Could you ask GSA to provide the committee with 
that information, the correct total information, bonuses? 
Again, it is just--when you have 1 percent of the employees, 
and they have 13,000 GSA employees and you get 10 percent of 
all the bonuses, it seems something is not right.
    Ms. Metzler, are you familiar with the issue that is 
brought up by Mr. Denham on signing the GSA contracts, in 
particular, the World Trade Center? It was a $350 million 
contract which was signed before it was authorized by the 
committee.
    Ms. Metzler. My responsibilities have to do with the 
internal operations of GSA and not with the public building 
services or leasing.
    Mr. Mica. Can you also request that the agency provide us 
that information? We are expecting some sort of reply. We have 
already requested it, and we do not have it, when the law 
states that anything over $2.7 million needs approval from this 
committee.
    I might say, too, you have 13,000 employees, and I chaired 
the Civil Service Subcommittee and there are thousands of 
Federal employees who go to work every day in this city and 
around the Nation who do an absolutely outstanding job. They 
help people, they are wonderful. And I have nothing against 
going to conferences. I come from central Florida. We welcome, 
we welcome people to central Florida. Unfortunately, several of 
the higher spending visits were to central Florida, and many of 
these may be legitimate expenses. But obviously some of them 
are over the top and they are expenditures.
    Ma'am, are you aware Mr. Denham cited that the agencies 
were not to give exorbitant gifts and recognition items in a 
Presidential or a standing order? Are you familiar with that 
requirement, or directive?
    Ms. Metzler. I am familiar with the Presidential directive. 
My office only took on responsibility for approving conferences 
and award ceremonies and related expenses in April of 2012. So 
we have been reviewing conferences from April of 2012.
    Mr. Mica. And we can't get the people who were responsible 
before us, but now you would not approve $20,000 in drumsticks, 
$35,000 in picture frames. Would that, would those expenditures 
comply?
    Ms. Metzler. We would not approve those now.
    Mr. Mica. And then the inspector general cited $140,000 in 
cost for organizing the conference. I went back and looked at 
the figures, and I think that there was some transportation and 
other things included in that. I saw the consulting fee of 
$104,000 to organize a 1-day conference. I took the 140 and 
then subtracted what I thought were legitimate expenses. Is 
$104,000 the typical fee for a 1-day conference?
    Ms. Metzler. Chairman, we look at the organizing fee, the 
overall purpose of the conference.
    Mr. Mica. But come on, $104,000 for a 1-day conference. I 
mean, I am in the wrong--there are a lot of people in the wrong 
business out there.
    Ms. Metzler. We would not have approved that conference 
under today's standards.
    Mr. Mica. OK. Well, just these things just pop out. You 
know I have got people in my district losing their homes, their 
jobs, they are struggling to make ends meet and we have got an 
agency that is spending money like there is no tomorrow, and it 
has got to be brought to a halt. So you are telling me again 
you are new in this position and we couldn't get the 
responsible parties in here.
    Would you convey also to Mr. Tangherlini that I have tried 
for three times to convene this hearing, and one of the reasons 
that we are not waiving further delay in holding this hearing 
is because of that. So we will have him back in when he returns 
from his family obligations, and I hope to also have some of 
the missing people who are involved in some of this before the 
committee, too. They will not be let off the hook.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Miller, you say in your testimony at page 3 that the 
administrator has begun a top to bottom review of the agency, 
and then you list or you name an example. Do you believe that 
the steps--are you satisfied, I should say, with the steps the 
Administration is taking to prevent abuses of the kind that 
came before us in Las Vegas that now we find were in Crystal 
City and other abuses in the agency?
    Mr. Miller. Well, Representative Norton, it is encouraging 
that GSA is taking steps to correct abuses in putting controls 
in. They strengthened the financial accountability, which was a 
recommendation of ours originally. In terms of whether these 
are effective or whether or not it is enough, I think it is too 
early to tell.
    Ms. Norton. Thank you. Now, could I ask a question about 
the Crystal City matter that the chairman just raised? Because 
as I look at that, even if the $140,000 plus, Ms. Metzler, does 
not--can be, you take out some of it, transportation and the 
rest, you are still left with $104,000, and it is by far the 
largest expenditure. Could I ask you if there are agency 
personnel that could perform the function that is called 
coordination and logistical management, or must such a matter 
be contracted out because I see that almost all of these 
conferences are contracted out to some private event planner, 
and they have their profit margin and all that goes with it. So 
is there anybody in the agency that can do conferences?
    Ms. Metzler. Congresswoman, yes, there are people in the 
agency and under the new standards of the acting administrator, 
we have a new requirement that before one of these new party 
event planners can be used in the future, that the head of the 
service has to approve it and then it has to come through my 
office and other appropriations.
    Ms. Norton. You do have event planners and people who do 
event planning in the agency?
    Ms. Metzler. It is not the mission of GSA, but there are 
people who do have----
    Ms. Norton. Well, you know, conferences aren't the mission 
either.
    Ms. Metzler. Yes.
    Ms. Norton. If everything that isn't the mission has to be 
contracted out, then work in the profit margin. And the real 
question, and I would ask Mr. Miller this. Wouldn't it be less 
expensive to have a few people knowledgeable about conference 
planning in the agency rather than to contract out to some 
private event planner every time you want to do a conference?
    Mr. Miller. Yes. I would add that the GSA has event 
planners on staff.
    Ms. Norton. Ms. Metzler, I would strongly recommend against 
contracting out to an event planner. Event planners do their 
work. They are very good. My hat is off to them. I don't think, 
I think they try to do the fanciest job they can. I think 
somebody who works for the Federal Government would have a 
better understanding of what the agency wants and I very much 
recommend it there, that these matters not be contracted out 
but the Federal employees be given the task of designing and 
developing conferences for Federal employees.
    Mr. Miller, I have got to ask you about this, it sounds 
strange, and I would want to look behind it, but this figure 
about 10 percent of the bonuses in the Federal Government come 
from GSA which has 1 percent of the employees. That will catch 
anybody's eye. Do you think that that figure is a figure, and I 
don't know what the word ``bonus'' means, that fairly 
represents the proportion of bonuses at GSA relative to other 
Federal employees or agencies?
    Mr. Miller. Representative Norton, I heard that figure this 
morning from the chairman. I have not had a chance to evaluate 
it.
    Ms. Norton. Mr. Miller, I would ask that among your 
priorities you look at that matter because it, I don't know how 
this, what the characterization is. Frankly, I find it a little 
difficult to believe. It is very difficult for me to believe 
that agencies which have hundreds of thousands of employees 
don't have a larger percentage. So I don't accept that at face 
value, and I won't accept anything at face value until you have 
had the opportunity to look into it.
    During this recession the President has essentially asked 
that certainly his appointees lead by example. I would not 
begrudge Federal employees bonuses, but I must say on a 
rationed basis when you consider that for most Americans a 
salary would be considered a bonus. So I don't, without knowing 
more about bonuses I certainly don't want to decry bonuses, but 
during a recession and a recovery, it seems to me they ought to 
be given and I can only say it on a rationed basis which would 
mean some people who might otherwise deserve them wouldn't get 
them, but what I ask you to do is to look at bonuses now so 
that we can see what that was about and what it and what can be 
done with it.
    I am very curious about page 2 of your testimony. Because 
you say in the last semi-annual, that would mean in the last 6 
months, reporting period your office of investigation made 486 
referrals for criminal prosecution, civil litigation, and 
administrative action. Would you break that down? That sounds 
like a large number. Would you compare that to what might have 
happened in the past?
    Mr. Denham. [presiding.] And I would ask you to break that 
down quickly.
    Mr. Miller. OK. Well, it is, we make referrals obviously 
for criminal prosecution for civil action.
    Ms. Norton. Yeah, but what proportion are of each. I know 
you may not have all of the figures before you.
    Mr. Miller. Well, I can get the figures and send them up to 
you. I would be happy to do that. They should be in our semi-
annual report as well broken down.
    Ms. Norton. And would you characterize them so when you say 
civil litigation or administrative action it would be helpful 
to know what that means as well.
    Mr. Miller. Well, that is usually a civil fraud case under 
the False Claims Act. So when a vendor or contractor has 
inflated billings to the GSA.
    Ms. Norton. So it may not be Federal employees.
    Mr. Miller. Correct. And again if a contractor is giving a 
bribe or a contractor, it may be a criminal referral against 
the contractor depending on the circumstances and not against 
the Government employees.
    Mr. Denham. Mr. Miller, if you could provide a full detail 
to this committee, we would appreciate it.
    Mr. Miller. Sure. I would be happy to.
    Mr. Denham. Mr. Miller, are you familiar with the August 3, 
2010, memo from the President, the Presidential memorandum to 
freeze discretionary awards, bonuses, and similar payments?
    Mr. Miller. Only in a general way.
    Mr. Denham. Well, let me just ask you since 2010 and in 
August have all discretionary awards been frozen?
    Mr. Miller. I understand the President has capped awards.
    Mr. Denham. Are there awards that you know of to date 
between August of 2010 to today, discretionary awards or 
bonuses or similar payments?
    Mr. Miller. I believe that they are either capped or 
frozen, or actually Ms. Metzler may be in a better position to 
answer that.
    Mr. Denham. There have been a number--you sent a report to 
this committee that there have been a number of bonuses that 
have gone out in the last 2 years?
    Mr. Miller. Yes.
    Mr. Denham. Thank you. Are you familiar with the memorandum 
to the heads of the executive departments and agencies that 
says that approval of conference-related activities and 
expenses shall be cleared through deputy secretary or 
equivalent?
    Mr. Miller. Yes, in a general way.
    Mr. Denham. Have they all been--all of the conferences, the 
77 that you have seen in the last year and a half, have those 
77 conferences been cleared by deputy secretaries or 
equivalent?
    Mr. Miller. I do not believe that they have.
    Mr. Denham. You do not believe they have?
    Mr. Miller. Correct.
    Mr. Denham. Are you familiar with the Presidential 
document, the Executive Order 13589 promoting efficient 
spending, where in section 7 it says ``Extraneous Promotional 
Items.'' ``Agencies should limit the purchase of promotional 
items, e.g., plaques, clothing, commemorative items.'' Are you 
familiar with that?
    Mr. Miller. Yes, in a general way.
    Mr. Denham. Have there been any commemorative items, 
plaques, or clothing that has been given out in the last 2 
years?
    Mr. Miller. Well, Mr. Chairman, we are conducting an 
ongoing investigation.
    Mr. Denham. Were there drumsticks at the Crystal Palace 
that were given out?
    Mr. Miller. They were given out in connection with the 
celebration.
    Mr. Denham. Were there commemorative frames?
    Mr. Miller. They were given out in connection with the 
celebration.
    Mr. Denham. Would you consider those commemorative items 
that should have been covered under Executive Order 13589?
    Mr. Miller. I think we are getting very close to our 
ongoing investigation with that matter. So I would decline to 
answer that.
    Mr. Denham. In your report, I will read from your report, 
$28,364.45 for 4,000 time temperature picture frames. I would 
consider those picture frames commemorative items. $7,810 for 
68 shadowbox frames provided by award crafters. I would 
consider that commemorative items. $20,578 for 4,000 drumsticks 
given to attendees. I would also consider that in that same 
category.
    So my question to you is if you have a memorandum from the 
President, if you have a memorandum to department heads saying 
that deputy secretaries or equivalent will approve all 
conferences and if you have two Executive orders by the 
President, how could this go on for the last 2 years?
    Mr. Miller. Mr. Chairman, we are looking into that. Our 
investigation is ongoing.
    Mr. Denham. Mr. Miller, you have been doing these 
investigations for quite some time now. Have you ever seen a 
period of time where Executive orders are just flat out 
ignored?
    Mr. Miller. It is----
    Mr. Denham. When the Commander in Chief issues an Executive 
order, do you ever find that agencies just ignore it? As a CEO 
of a company if I had a department head ignore my order, they 
would be fired.
    Mr. Miller. Right.
    Mr. Denham. So the question is why aren't these people 
being fired if they are ignoring the Commander in Chief?
    Mr. Miller. I understand that and we have an ongoing 
investigation.
    Mr. Denham. Thank you.
    Ms. Metzler, I understand that Mr. Tangherlini couldn't be 
here today. I appreciate that. This committee had a 
responsibility to continue on its investigation and make sure 
that the law is actually being upheld, but we would like to 
continue to offer an invitation to Mr. Tangherlini and give him 
plenty of heads up. I assume he doesn't have a vacation planned 
on August 6, when we have our hearing in Miami. I would hope 
that he also does not have a family vacation planned August 17. 
I understand, I have got a family too. I understand how 
important family vacations are. We are going to give him two 
more opportunities in the next few weeks to testify before this 
committee. We hope that he doesn't have previous engagements.
    But let me ask you, in your testimony you say as of April 
2012, all events for--all travel for events, including internal 
GSA meetings, trainings, conferences, seminars and leadership 
or management events, among others, were suspended. Were they 
suspended?
    Ms. Metzler. They were suspended and any event subsequent 
to April had to go through the new approval process.
    Mr. Denham. Conferences and celebrations?
    Ms. Metzler. Yes.
    Mr. Denham. Award ceremonies?
    Ms. Metzler. Yes. Award ceremonies with food, yes.
    Mr. Denham. So all GSA travel went through you on these 
types of conferences, celebrations, or award ceremonies?
    Ms. Metzler. After April.
    Mr. Denham. You consolidated oversight of conference and 
travel expenses in the Office of Administrative Services which 
you lead?
    Ms. Metzler. That is correct.
    Mr. Denham. Why is there is a conference going on today in 
Nashville?
    Ms. Metzler. That conference was subject, it is called the 
SmartPay Conference. It was previously scheduled, long 
scheduled before the acting administrator. Those responsible 
came in with their proposal for the conference, why it was 
being held, who was going to be attending it, what the purpose 
was.
    Mr. Denham. Let me just ask. My time is brief here. Over 
6,000 rooms at the Gaylord in Nashville, I understand the 
Presidential suite is occupied today. Is there a GSA employee 
in the Presidential suite?
    Ms. Metzler. I do not know.
    Mr. Denham. It is over $3,000 a night. You don't know?
    Ms. Metzler. I don't know. I would hope not.
    Mr. Denham. I would hope not, too. How about the junior 
suites? Those are all booked up today, too.
    Ms. Metzler. Under our policies those rooms are not to be 
occupied by GSA employees.
    Mr. Denham. And since you oversee the oversight and the 
travel expense of these, what is the travel necessity of the 
General Jackson steamboat that is taking a party out tonight? 
Is there a travel, are they going to a destination, is that the 
reason for travel expense of the General Jackson steamboat?
    Ms. Metzler. There is no such travel associated with 
anything that the General Services Administration is involved 
in. That may be some other third party.
    Mr. Denham. So there is no expense to the Federal 
Government for the General Jackson steamboat that is having a 
party tonight?
    Ms. Metzler. That is correct, to the best of my knowledge.
    Mr. Denham. Great. We look forward to looking into that 
further.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I apologize for my 
delay. I had a Judiciary hearing. Good to have you all with us, 
by the way.
    Mr. Miller, who brought your--strike that. Mr. Miller, who 
brought the FAS, the Federal Acquisition Service, conference to 
your attention?
    Mr. Miller. Acting Administrator Dan Tangherlini brought it 
to my personal attention. There was a, we did receive a hotline 
complaint in May of this year. It was an anonymous complaint of 
about five single-spaced pages with about four lines of general 
information about this conference.
    Mr. Coble. That was after you had heard about it initially?
    Mr. Miller. I'm sorry, sir? I didn't hear you.
    Mr. Coble. Were you familiar with it prior to having 
received that notice or----
    Mr. Miller. No, I was not.
    Mr. Coble. OK. It appears that--I hope that I am not being 
duplicative of what questions may have been put to you in my 
absence but it seems that the conference took place in two 
locations, the Marriott in Crystal City and then a reception 
that I am told costing over $7,000 at the Key Bridge Marriott. 
The reception I am furthermore told was complete with a 
violinist and guitarist, apparently music provided, and it 
appears that a bus was hired at more than $5,000 presumably to 
shuttle attendees between the two different hotels. I guess my 
question is why were two locations needed for a 1-day 
conference, A, and who was invited to the reception?
    Mr. Miller. Well, those are questions that we are looking 
for the answer to as well. We have an ongoing investigation 
into this matter.
    Mr. Coble. You want to weigh in on that, Ms. Metzler?
    Ms. Metzler. When the acting administrator found out about 
this conference, we referred the matter to the inspector 
general for inquiry and so we are waiting for the results of 
his survey, of his investigation.
    Mr. Coble. Well, as I said in my opening statement it does 
appear that sound fiscal practices have been cast aside, if not 
abandoned, for mismanagement and waste and recklessness, and I 
am hoping that this hearing will at least expose the 
wrongdoing, and I think it has been wrongdoing, and again, 
thank you all for being here. Anything either of you want to 
add before I yield back?
    Mr. Miller. No, thank you.
    Mr. Coble. Thank you, Mr. Chairman. I yield back.
    Mr. Denham. Thank you, Mr. Coble.
    Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. Just a couple of 
questions. How many conferences a year do you normally have 
scheduled roughly? I don't need an exact number.
    Ms. Metzler. The numbers that were scheduled prior to April 
11, 2012, we have been trying to uncover for the last several 
months. Right now for this year in 2012, we have only five 
conferences scheduled.
    Ms. Napolitano. But those conferences were, pre-April you 
are continuing to have the conference. Is there any call to 
have any of the people who scheduled conference go to whoever 
is in charge to find out whether they are meeting the 
requirement to hold the budget to be able to be transparent, to 
be able to have information?
    Ms. Metzler. Congresswoman, yes, there is. We have very 
strict policies now.
    Ms. Napolitano. Now but before that.
    Ms. Metzler. Before that we did not have central controls 
of conferences, how many there were or who went or the nature 
of them.
    Ms. Napolitano. But apparently you still have conferences 
that were pre-approved prior to April?
    Ms. Metzler. Actually not. Any conference that was 
scheduled after April.
    Ms. Napolitano. No. I am talking pre-April.
    Ms. Metzler. Even if it was scheduled before April, it was 
deemed to be canceled, and they had to come back to--through my 
office to the deputy administrator, to the administrator to 
hold the conference.
    Ms. Napolitano. So you do have oversight over anything 
regardless of whether it is pre or post?
    Ms. Metzler. Yes, that is correct.
    Ms. Napolitano. OK. Then the concern that now raises its 
ugly head with me is the cost is going to be inherently on the 
taxpayer, if you will, for the investigation of those 77 
conferences, am I correct, sir?
    Mr. Miller. We are currently investigating those. Yes, it 
comes out of our appropriations.
    Ms. Napolitano. Right. But that is, again that is money 
that should not have been--had to be spent in other words.
    Mr. Miller. Yes.
    Ms. Napolitano. But you are having to go back and review 
and ensure that the law has been followed that compliance has 
been made?
    Mr. Miller. Yes.
    Ms. Napolitano. OK. Is there any way to quantify how much 
time you are going to spend on these? I am talking about in 
terms of dollars?
    Mr. Miller. That would be difficult. We are trying to do 
this in the most efficient way possible. We use parameters.
    Ms. Napolitano. Understood. I am trying to get to the point 
that it is going to cost the taxpayer a lot of money because of 
the decades, if you will, of doing whatever it is that they did 
without having any oversight or any control over the conference 
of the event, the expenditures, the bonuses, et cetera. And you 
say you have cut all bonuses, ma'am?
    Ms. Metzler. Bonuses are not within my lane of 
responsibility. I am aware that the acting administrator has 
issued a serious curtailment on senior executive bonuses and 
other bonuses are being looked at as being part of the top to 
bottom review.
    Ms. Napolitano. That is curtailment but not necessarily 
ending bonuses until clarification is made of whether they have 
been earned?
    Ms. Metzler. Are you asking me a question there?
    Ms. Napolitano. Well, yeah, certainly. I know senior 
management normally will get bonuses. The American public 
doesn't get bonuses. We are trying to figure out how can we 
justify that when we have such a tight budget, when we are 
looking for money regardless of whether--you are paid to do a 
job, for goodness sakes.
    Ms. Metzler. I will be happy to get back to you with the 
information from the right officials at GSA regarding bonuses.
    Ms. Napolitano. Would you? I don't sit on the committee of 
jurisdiction, so I am kind of wondering about some of the 
questions that kind of fall through the cracks for me.
    You talk about misjudgment from several administrations. 
But why has it taken so long that it took maybe a whistleblower 
or somebody to raise the issue with the Office of Inspector 
General?
    Ms. Metzler. The acting administrator came to GSA in April. 
On April 15 and 16, he issued a series of new policies 
regarding conferences and training. So it didn't take him but a 
minute, or less than a week to issue the policies that we have 
now that provide oversight, central control, and put fiscal 
responsibility back into the spending.
    Ms. Napolitano. And what brought that to a head?
    Ms. Metzler. Well, him coming to GSA, which was prompted by 
the resignation of the previous administrator.
    Ms. Napolitano. I see. Well, thank you, Mr. Chair. I would 
like to submit some questions for the record.
    Mr. Denham. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Mr. Miller, I had 
intended to ask about these 486 referrals that Mrs. Norton got 
into, and I am still curious about those. That does seem like 
an awfully high number because that, over a 6-month period that 
comes to over 80 referrals a month. Is that much higher than 
has been done in the past, or has it always run about that, and 
I know you said many of these or most of these were not 
referrals about GSA employees but more fraud cases toward GSA 
contractors or something. Would you tell me a little bit more 
about that?
    Mr. Miller. It is a mix of referrals. My point was that a 
referral can either be against someone doing business with GSA 
or it can be about a GSA official. So I wouldn't want to 
quantify it off the top of my head as to which one is more, 
whether there are more referrals regarding contractors or more 
referrals regarding GSA employees.
    I would be happy to furnish the committee with the precise 
breakdown of the employees, of the referrals. We do a lot of 
referrals with credit cards that go with the leased vehicles, 
GSA leases vehicles, it is called the fleet, to other agencies 
and any time another agency uses one of these cards, a credit 
card goes along with it. And unfortunately, Federal employees 
misuse the credit card, and they will charge gas for friends 
and family, for example, and that is a crime which is referred. 
So it is not a large case, but it is a referral and we do have 
it prosecuted by U.S. attorneys when we can or by State 
prosecutors when we can. So we do have a number of those which 
may contribute to the higher number of referrals. I don't know 
if that helps explain it but I am happy to give you a 
breakdown, precise breakdown of the referrals.
    Mr. Duncan. Do you know whether that was a much higher 
figure than in the preceding semi-annual period or----
    Mr. Miller. I think we have been increasing our referrals 
over the years, and I take that as an accomplishment of the 
office.
    Mr. Duncan. I would like to see a breakdown at some point 
of how many of those were GSA employees and also whether one of 
these GSA contractors was a repeat violator of some sort 
because if there is a small number of companies, for instance, 
that are just repeat violators, something needs to be done 
about that also.
    Mr. Miller. Right. Well, I will give you an example. We 
recovered almost $200 million from Oracle recently under a 
settlement of a False Claims Act case, a civil fraud case. So 
that is an example of one of the cases. So it can range from 
$200 million to someone misusing a credit card for a leased car 
for gas in the amount of a hundred to $500. So it is a large 
range of damages.
    Mr. Duncan. On another topic, I am told by staff that CBS 
had a report that said that over 13,000 GSA employees received 
bonuses or extra pay, incentive pay, whatever you want to call 
it, different types of bonuses or extra pay. Yet on the GSA Web 
site it says the number of GSA employees is 12,635. Have you 
looked into that? Was it just a common accepted practice that 
every GSA employee got a bonus or some type of extra pay?
    Mr. Miller. We have an audit on its way of executive 
compensation. It is an audit that we started some time ago. It 
was prompted because we saw, we suspected multiple awards to 
GSA officials involved in the Western Regions Conference, 
multiple awards for the same work that they have done.
    Mr. Duncan. Ms. Metzler, on this conference where it says 
$10,000 was paid for a presentation by somebody called Mission 
Possible Agent X, do you know what that, what they got for that 
$10,000 or what that presentation was about?
    Ms. Metzler. Congressman, I do not. That conference was in 
2010. It predated our current review processes and, as I have 
indicated, we would not be approving that conference at this 
time.
    Mr. Duncan. Well, all right. I will just close by saying 
this. I will repeat what I said in my opening statement. 
Unfortunately it is just far too easy to spend other people's 
money and when people--or the problem with the Government is 
when it is not coming out of your own pocket, we have got too 
many people at the Federal level who are just abusing the 
taxpayers.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you. And I would remind the committee 
that we do have a hard deadline of 11:00 for a markup on 
committee bills so any questions that you feel comfortable with 
providing the chair that we can enter into the record and get 
answered for you would help to move the committee along better.
    With that, Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman, for holding this 
committee, and Mr. Miller, thank you for being back again and 
for the work you have done. There are a couple of things my 
colleagues have said. The one thing, it is very hard not to 
feel the frustration here. I think Mr. Barletta was right 
though. At some point in time, expressing frustrations about 
getting anything out of it is simply not good enough. I am glad 
Mr. Mica commented on the great number of Federal employees who 
do their job and Mr. Duncan pointed out the issue. I would 
argue there is an incentive other than pay. It is called 
ethics. I would like to think as I taught school starting out 
for $17,000 a year, I worked just as hard as I did when I 
reached the stratospheric top at $47,000, that I was working 
just as hard as in that classroom in trying to save money for 
the taxpayers. But when we get a situation like this, it 
absolutely, as Ms. Johnson said too, it destroys all 
credibility amongst all Members.
    And Ms. Metzler, my friend, Mr. Denham, I know is very 
thorough. I think you and I both know there is not going to be 
good news out of this conference. Somebody is staying in that 
damn suite tonight, I would almost guarantee you, and that is--
I understand that you don't have that, but I think you know 
that, don't you. So my question is, next is what happens when 
you come back and the questions that are getting asked today I 
don't have any answers for these, and I am as frustrated as 
anybody else. I am trying to get a grasp on what Mr. Barletta 
said, how do we make sure this stops? It appears to me there 
was clear cut directives put out, there were Executive orders 
put out. Mr. Miller has been to this committee and testified. 
Many of us sit here appalled at $45 breakfasts and everything 
else and here we are again.
    So are you confident that the changes that have been 
implemented or are in place are going to say for example to 
make sure none of the things that were forbidden are going to 
happen today in Nashville? Are you comfortable with that as an 
administrator?
    Ms. Metzler. I am comfortable that we reviewed all of the 
expenses for this proposed conference along with all the others 
that have been held, that the administrator has, we have looked 
at the expenses that were in the budget. We have made very 
clear the ethical responsibilities of every employee that is 
attending this conference and ethical responsibilities on the 
private sector companies that are also attending. So I am 
comfortable that we have conducted a thorough review of this 
conference.
    Mr. Walz. For the American public then, and I am 
speculating, I want to be very clear, I am speculating what is 
happening there but everything, my spider spin tells me there 
is something very bad going to come out of that and if that 
does, can you give me a buck stops here assessment? If there is 
a GSA employee in a $3,000 a night suite in Nashville, what is 
going to happen? That is what Mr. Barletta is asking. Who is 
accountable? I think it is. I don't want to put words in his 
mouth. Who is going to be accountable if that happens? We will 
find out. I mean, this is going to come out so in a week or so, 
there is going to be a story, no, there was not, and I will say 
goodness, they put some good checks in place or not, if it 
comes out someone is in there. What will happen then?
    Ms. Metzler. Well, as with all things with Acting 
administrator Tangherlini, once we discover that there is 
something that has violated our policy or the law or something 
or another, we have been referring those matters to the 
inspector general. If we find that there is anything about this 
conference that does not comport with what it was proposed to 
be to the acting administrator and to me, then we will be 
referring that matter to the inspector general.
    Mr. Walz. When you leave this room is somebody going to be 
on a cell phone calling Nashville?
    Ms. Metzler. I think someone is probably on a cell phone 
already while we are in this hearing because we were very clear 
about the limitations on any preexisting conference that 
received approval that there were not to be questions of 
riverboats, there were not to be questions of Presidential 
suites. So that was the guidance that was given, the direction 
that was given, and the conditions under which this conference 
was approved, and I am hopeful that by the time I leave here we 
will have answers.
    Mr. Walz. And I do appreciate that. And I want to be very 
clear. I know you are in an uncomfortable position. That is 
what comes with leadership, but I can't stress the corrosive 
factor that happens to so many dedicated, hardworking, ethical 
employees across this country, and whatever you say about it's 
unfair with gross generalizations, I certainly know it here 
that we are painted by our colleagues in this body, and we each 
get associated with one another and it is all of our 
responsibility, especially leadership, to fix that. And with 
that I yield back. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Walz. I would just remind 
committee members we have got about 10 minutes. I am going to 
ask each of you if you could keep it to 2 minutes so that we 
make sure we finish on time and get to everybody.
    But Ms. Metzler, I just want to clarify, Mr. Walz was very, 
very clear on his question. And you did say we consolidated 
oversight of conference and travel expenses in the Office of 
Administrative Services, which I lead, you lead, you sign off 
on, and as you said, there are probably people on cell phones 
right now just contacting the Gaylord Opryland who confirms 
that GSA has rented out the General Jackson for a private event 
this evening. Did you authorize GSA to rent out the General 
Jackson for a private evening tonight, the steamboat?
    Ms. Metzler. We did not. This conference, I just might 
add----
    Mr. Denham. Thank you. I need to yield to the next Member, 
Mr. Barletta, for 2 minutes.
    Mr. Barletta. Thank you. Ms. Metzler, I had asked if I 
could see GSA's budget. I was interested in how much they 
budgeted for these types of conferences and meetings, and the 
response I got is that the answer is complicated, that they 
budget a top line for building operations but they have not 
budgeted down to line item like conferences and meetings. Now I 
know you talked about some of the reforms that are in place. 
Could you tell me what they have budgeted right now for 
conferences, meetings, travel, bonuses?
    Ms. Metzler. Congressman, the budgeting of the agency is 
within the purview of the Chief Financial Officer, and the 
entire budgeting along with every other aspect of GSA is part 
of the acting administrator----
    Mr. Barletta. But I am asking do they have line items 
specifically for conferences, for bonuses. Is it itemized like 
that that you could tell me or somebody--I couldn't even get a 
budget, I couldn't even get a copy of the budget. I am a Member 
of Congress. Is it down to line items?
    Ms. Metzler. The proposals for conferences that after April 
are very much line item by line item so that we saw, for 
example, for the SmartPay Conference----
    Mr. Barletta. If I could because my time, I want to get to 
the point. Could you then send me a list of what, how much 
money is budgeted for conferences, bonuses, travel and also 
what GSA's budget is. And the answer here is how do we fix 
this, how do we fix this problem? We could go on and on and on. 
This is not the only agency. So this is my take away from this 
meeting. There is number one. We need to force the Senate and 
Congress should pass and the President should sign a budget for 
the American people; two, Congress should require that every 
department utilize zero base budgeting. Every department 
require. Three, we should not ask to take more hardworking 
taxpayers' money so that Washington could spend it. And four, 
we should not let this Government run our health care system.
    Thank you.
    Mr. Denham. Thank you. Ms. Metzler, if you could provide 
that back to the committee, the entire committee would be 
anxious to see how many conferences you have approved as well 
as the expenses and the line items moving forward.
    I now recognize Mr. Sires for 2 minutes. I am sorry, Ms. 
Edwards for 2 minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses. Just a couple of questions if we could just run down 
them because time is short. How many employees are at GSA?
    Ms. Metzler. Over 12,000.
    Ms. Edwards. And what is your estimate of the number of 
them that have participated in these conferences in the last 
year?
    Ms. Metzler. Congresswoman, I would have to get back to you 
about the numbers of people that have participated in these 
conferences.
    Ms. Edwards. But it would be fair to say that it is 
probably not 80 percent of the agency that has participated in 
these conferences or 90 percent of the agency, right?
    Ms. Metzler. It would be fair to say it is less than half 
and much less than that I would estimate, but I would have to 
get that to you.
    Ms. Edwards. Now, over the last 3 years the regular general 
service workers at GSA haven't received a pay raise at all, 
isn't that right.
    Ms. Metzler. I have just rejoined the Government in August 
of 2011, so I am not familiar with what pay situation was 
before that period.
    Ms. Edwards. Pretty much guaranteeing that Federal workers 
haven't received a pay raise in 3 years. And what is the 
percentage of the employees at GSA who have received bonuses?
    Ms. Metzler. Congresswoman, I will have to have someone get 
back to you with that information. I don't have it since it is 
not part of my responsibilities.
    Ms. Edwards. Would you also get back to me about the 
numbers of those employees in the GS-3 and 5 and 7 range who 
weren't the recipients of those bonuses at the senior executive 
level, employees who haven't received a pay raise over the last 
3 years?
    Ms. Metzler. We will get that information to you.
    Ms. Edwards. And how many annual conferences have there 
been that aren't related to boosting morale but are serving the 
core mission of the agency?
    Ms. Metzler. The vast majority of the conferences of GSA 
are serving the core mission of the agency. The conference that 
we are holding right now is called the SmartPay Conference. It 
is to provide credit card holders with required training so 
that they know how to manage their credit card. The last 
conference we had was to provide conferences on contracting 
and----
    Ms. Edwards. We are out of time so I can't--and I 
appreciate that but I can't run through all of these. Let me 
just say in closing that I think in addition to strengthening 
the accountability in the conference arena that it is important 
for the IG to look deeply into questions that I have had 
longstanding about the transparency accountability, fairness 
and parity in every area of the General Services 
Administration. And this is not about the good employees of 
GSA. A lot of them live in my congressional district. But when 
I walked up to a woman who works at GSA who works hard every 
day who hasn't got a raise, who shows up and does her job and 
she is in tears because this agency is in the newspaper every 
single day, it is disgusting. It is not worthy of the 
taxpayers. It is not worthy of the citizens of this country, 
and GSA needs to get its house in order. And the director, 
Acting administrator Tangherlini, I am glad that he rooted out 
the problem, but he needs to be in front of this committee 
because there are a lot of questions that need to be answered 
and here you have somebody who is ostensibly a friend of the 
Administration totally disgusted with the Administration, 
totally disgusted with the GSA and with its operation at every 
single level, every single time that we have a hearing in front 
of this committee, and we just can't take it any more. You 
know, let us defend the employees who are good and hard workers 
at the General Services Administration, but not to defend this 
kind of garbage that is a waste of taxpayer money and that 
makes all of us in the public not have any confidence at all 
that the good workers at GSA can do their job.
    And with that I yield.
    Mr. Denham. Thank you, Ms. Edwards. And Ms. Metzler, this 
committee would also request the analysis on the training per 
individual. As Ms. Edwards said, there is a lot of money going 
into this. We want to make sure the good training that they are 
receiving is a definite benefit to each of those that are 
getting trained. If they are spending a million dollars at a 
conference, we want to see the benefits that those that are 
getting trained are getting out of that and I would like to see 
the cost-benefit behind that.
    I now recognize Mr. Ribble, the final questioner, for 2 
minutes.
    Mr. Ribble. Thank you, Mr. Chairman. Mr. Miller, were the 
current heads of FAS and PBS at the Virginia conference?
    Mr. Miller. The current head of FAS was at the conference. 
I am not sure about PBS. We would have to look, I would have to 
look into that.
    Mr. Ribble. Ms. Metzler, do you know if the head of PBS was 
at the Virginia conference?
    Ms. Metzler. I do not.
    Mr. Ribble. OK. Could you get back to me with that 
information, please?
    Ms. Metzler, in your testimony on page 2, you said Mr. 
Tangherlini looks forward to continuing to work with the 
committee to refocus the agency on its core mission of 
streamlining the administrative work of the Federal Government 
to save money for the American taxpayer. What in the world were 
they doing before?
    Ms. Metzler. The acting administrator has committed to 
conducting a thorough top to bottom review of this agency so 
that every single aspect of the agency is being looked at right 
now so that we can ensure that it is carrying out its mission 
in the most cost effective way.
    Mr. Ribble. You say in your testimony also on page 2 that 
your office reviews each and every planned future conference to 
make sure that these events and any related travel are 
justified, and then you say, for example, conferences require a 
business justification and the submission of a budget. That 
wasn't going on before? This is pretty basic?
    Ms. Metzler. Before April of 2012, there was no central 
oversight of conferences to require that the proposal for what 
the conference was about, how it was related to the agency's 
mission, that may have happened, but it was not done in a 
centralized fashion.
    Mr. Ribble. This is just unbelievable. This is shocking. 
The American people watching this must just be stunned by this 
that they weren't required to submit a budget to have a 
conference approved?
    Ms. Metzler. After April 11, April 2012, we have been 
requiring much more diligence in what the justification for the 
conference is, and I am sure there were budgets beforehand, but 
we have been looking at these in a different fashion to ensure 
that the American taxpayers' dollars are well utilized.
    Mr. Ribble. I can tell you and I can say this, Mr. 
Chairman, as I yield back. My son is a professional drummer in 
Nashville, ironically sometimes plays on the General Jackson. 
However, he pays about $7 a pair for drumsticks. The GSA whose 
core mission is to save money for the American taxpayer bought 
4,000 drumsticks and paid $10.28 a pair. And you can pay them 
retail, just search the Internet, you can buy them retail for 
under $7 a pair. So about 35 to 40 percent more. I am wondering 
how in the world they can claim they are trying to save money 
for the American taxpayer, and I yield back.
    Mr. Mica. [presiding.] Thank you. Our last one will be Mr. 
Sires.
    Mr. Sires. We thought you were talking about food over here 
when you were talking about drumsticks.
    You know, I would just like to associate myself with the 
comments of my colleague. And let us talk a little bit about 
leasing. Did you just, did the GSA just lease or sign a lease 
with the World Trade Center?
    Mr. Miller. Yes.
    Mr. Sires. Why would you go to the World Trade Center? 
Besides the fact that the lease was usually it is approved by 
this committee and it was never brought before this committee. 
That is the reason I am----
    Mr. Miller. I was not involved in that in any way. It is 
not the role of the inspector general.
    Mr. Sires. It is a longstanding history that it comes 
before the committee and we approved it.
    Mr. Miller. I was providing a fact for you. It was signed.
    Mr. Sires. OK. But why the World Trade Center? I mean, I 
would think you would get something cheaper if we are looking 
to save money. Can anybody tell me why the World Trade Center?
    Ms. Metzler. My responsibilities at GSA include the 
internal operation of the agency, not leases like the World 
Trade Center. I am sure we will be happy to provide that 
information to the committee.
    Mr. Sires. Why wasn't it, Mr. Miller, brought before the 
committee? Usually it is the history that the leases are 
brought before the committee for approval.
    Mr. Miller. I understand that. I cannot answer that 
question. Certainly that is something that Acting administrator 
Tangherlini or someone at GSA who controls the functions of GSA 
can answer and should answer.
    Mr. Sires. Well, you know, I don't have much time but it is 
just outrageous. It really is. You know, here we are trying to 
defend the good workers and then we have the situation with the 
bonuses. Who sets the standards for these bonuses? How do they 
arrive at giving somebody a bonus? Is it a committee or is it 
just a person just says Mr. Miller, you are going to have this 
bonus?
    Mr. Miller. No. I believe there are policies and 
performance criteria involved, but again that is a function 
within GSA. We have an audit ongoing of executive compensation, 
so we are looking at that and we are looking at how awards are 
being given out and how bonuses are given out.
    Mr. Sires. All right. I yield back. Thank you very much.
    Mr. Mica. Thank you so much, and I thank Members. If other 
Members have questions or other additional inquiries that they 
would like to submit to our witnesses, I welcome them, and I 
ask unanimous consent that today's record be kept open for a 
period of 15 days for the witnesses to respond or for Members 
to provide additional commentary to the record.
    Without any further business, I want to thank the two 
witnesses for coming today, particularly Mr. Miller, for your 
cooperation as the inspector general. Ms. Metzler, we are 
expecting additional answers and commentary. I am sorry you got 
the short straw today and you are down the totem pole and 
fairly new and the others have ducked and either hidden for 
cover, but we will convene additional hearings here when we 
come back in September, and I invite Members to participate in 
the field hearings that are scheduled, Mr. Denham and I will be 
conducting in the interim.
    There being no further business on this particular hearing, 
I excuse and thank again the witnesses. And this will conclude 
the GSA portion of our proceedings today, and I will call that 
portion of our hearing adjourned.
    [Whereupon, at 11:00 a.m., the committee was adjourned.]

</pre></body></html>
